        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Modular Office Facilities for
Recovery Act Program Activities at
the Hanford Site




OAS-RA-L-13-04                             July 2013
                                  Department of Energy
                                     Washington, DC 20585

                                          July 9, 2013


MEMORANDUM FOR THE MANAGER, RICHLAND OPERATIONS OFFICE



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Modular Office Facilities for
                         Recovery Act Program Activities at the Hanford Site"


BACKGROUND

The Department of Energy's Richland Operations Office (Richland) awarded a contract, effective
October 1, 2008, to CH2M HILL Plateau Remediation Company (CHPRC) to remediate select
portions of the Hanford Site's Central Plateau. As part of the American Recovery and
Reinvestment Act of 2009 (Recovery Act), Richland designated $1.3 billion of Recovery Act
funding to the Plateau Remediation Contract to accelerate CHPRC's work scope from April 2009
through September 2011.

Due to the influx of Recovery Act funding in 2009 and the accelerated schedule, CHPRC hired
an additional 1,757 employees, including subcontractors. To provide office space for these
temporary employees, CHPRC procured a total of 176 modular facilities consisting of 114
purchased and 62 leased facilities. Modular facilities ranged from single-wide to five-wide
modular structures and included space designated for work stations, lunch areas, lockers,
showers and conference rooms. These facilities were acquired at an approximate total cost of
$29 million. This cost included the purchase price of structures, set up costs, and related costs
such as constructing sidewalks, parking lots and lighting.

The Office of Inspector General received an allegation that a number of the facilities CHPRC
purchased with Recovery Act funds were either never used or were underutilized. Accordingly,
we initiated this audit to determine if modular facilities purchased with Recovery Act funding
were fully utilized for Recovery Act mission activities.

RESULTS OF AUDIT

Our review substantiated the allegation. In particular, we discovered that CHPRC incurred as
much as $1.5 million more than necessary by purchasing unneeded modular facilities and almost
$600,000 in lease costs that could have been avoided by more expediently returning leased
facilities that were no longer needed. In fact, we found that 7 of 176 facilities purchased with
Recovery Act funds were not utilized through September 30, 2011, the date that most Recovery
Act work at Richland ended. We could not determine whether the remaining facilities were
underutilized because the contractor's documentation did not adequately justify the need for all
of the facilities.

                                     Facilities Acquisition / Disposition

We identified seven facilities with costs totaling $1,470,000 that were not utilized1 to support
Recovery Act work scope. Specifically:

    •    Two of four "five-wide" facilities along with two adjoining restroom structures purchased
         with Recovery Act funds were not utilized until October 2011. CHPRC purchased the
         four facilities, in November 2010, for a total cost of $1,142,000. These buildings
         contained office space for 48 people, but remained vacant until October 2011, after the
         majority of Recovery Act work ended. Although these facilities were occupied in
         October 2011, this was after CHPRC staffing returned to near pre-Recovery Act levels
         leaving space available in other facilities. Furthermore, the employees that eventually
         moved into the five-wide facilities were primarily moved from other structures purchased
         with Recovery Act funds as well as older modular facilities, leaving several of those
         facilities vacant after the move.

    •    Three of 14 shower facilities,
         purchased in July 2010, for a total
         cost of $328,000, were not utilized
         to support Recovery Act work
         scope. In fact, as of the end of the
         majority of Recovery Act work,
         these facilities were not connected
         to utility services such as power and
         water. CHPRC management
         acknowledged that these facilities
         were not utilized for Recovery Act
         work scope, and has since re-                  Figure 1: Five-wide modular offices.
         deployed these facilities to areas
         where they could be used.

We also found that CHPRC did not return leased facilities after they were no longer needed. As
a result, CHPRC may have incurred additional costs of $598,000 in lease payments. Finally,
CHPRC did not have detailed plans for the future use of purchased facilities that were no longer
needed for Recovery Act work.


1
  The Government Services Administration's (GSA) Federal Property Management Regulations define "not utilized
property" as an entire property or portion of a property that is not occupied or used for current program purposes of
the accountable agency or property that is occupied in caretaker status only. According to GSA, property that is not
utilized is generally considered vacant. (41 C.F.R. 101-47.801)
                                                          2
                                        Utilization of Facilities

Due to the lack of and/or incomplete nature of the records available, we were unable to draw a
conclusion as to the overall utilization rate of leased and purchased facilities. Specifically, we
noted that the contractor's records for tracking where Recovery Act hires were placed and how
often the new facilities were actually utilized, were incomplete, and had significant limitations.
CHPRC provided us with information from its Human Resources system, the only data available
supporting the whereabouts of its employees during the Recovery Act. However, CHPRC
informed us that the data had significant limitations and would be difficult to rely on. When we
discussed this concern with Federal managers, Richland management acknowledged that the
contractor did not have adequate documentation to demonstrate that the mobile facilities were
adequately used due to lack of data in the contractor's Human Resources records that had no
work locations listed for hundreds of employees. However, Richland officials pointed out that
the contractor was not required to document occupancy of specific trailers, and the Recovery Act
time period was characterized by extremely challenging conditions. Richland officials noted,
however, that they believed it was reasonable to assume that some of these employees used the
mobile trailers in question, while others may have used existing facilities. Additionally,
Richland officials pointed out that hundreds more of employees were assigned to "process
facilities" and as such, may or may not have ever worked in the new mobile trailers. While we
acknowledge Richland management's assertion, it was impossible for us to fully evaluate the
utilization of leased and purchased facilities because of the lack of complete worker location
records.

                                      Return of Leased Facilities

Despite the reduction of CHPRC personnel to near pre-Recovery Act levels as of September 30,
2011, which coincided with the end of the large majority of Recovery Act work, we noted that
CHPRC did not return the leased facilities promptly. We concluded that it would have been
                                                   reasonable for CHPRC to decrease the
                                                   number of leased facilities as the staff
                                                   reductions took place. However, CHPRC
                                                   continued to lease these facilities well past
                                                   what was needed, and incurred $598,000 in
                                                   lease costs since September 30, 2011.
                                                   CHPRC took action to return 40 of the 62
                                                   leased facilities as of August 31, 2012, 11
                                                   months after the majority of the Recovery
                                                   Act work had been completed.

                                                           According to CHPRC officials, it did not
                                                           initially return the remaining 22 facilities
                                                           because of the substantial cost of return and
Figure 2: Mobile office areas include permanent sidewalks,
lighting, roadways and utilities.                          because the facilities were in use. We noted
                                                           at the time that CHPRC had continued to
lease the remaining 22 facilities using Recovery Act and non-Recovery Act funds at a monthly
cost of $36,215. However, we found that although it was indeed expensive to return the trailers,
it was much more expensive to keep them. Specifically, we found the average cost to return

                                                   3
each facility was a one-time payment of approximately $10,500. Furthermore, according to our
analysis of relevant lease agreements, CHPRC likely will still incur the $10,500 cost to return
each facility regardless of when it is surrendered. Although CHPRC asserted that the facilities
were in use, CHPRC could not verify that claim due to incomplete documentation. Furthermore,
our walkthrough of CHPRC facilities in October 2011, revealed that there was significant space
available for employee occupancy. We reasoned that because the Recovery Act hires had largely
been released by the end of September 2011, and there was a significant amount of available
space in other CHPRC owned facilities, the facilities leased to house the Recovery Act
employees were no longer needed.

In response to our draft report, management disagreed with the conclusion that 22 facilities were
not needed, stating that to date, 10 of these trailers have been transferred to other contractors,
while the other 12 units will be returned by May 2013. Management acknowledged that a more
accurate forecast of personnel reductions may have enabled a faster return of leased facilities.
Further, management stated that the contractor had considered a faster approach for the
demobilization of the leased facilities, stating that the contractor compared continued lease
payments for some trailers (the slower option) to the increased cost of overtime and temporary
employees necessary for a faster demobilization. For the slower approach, management
identified a cost that was $3.9 million less than the faster demobilization. However, the
contractor was not able to provide documentation to support this calculation, nor did the
contractor fully document the alternative analysis that management states led it to retain the
facilities for that period of time.

                                              Planning

We attributed the problems associated with procurement of facilities that were not used during
the Recovery Act period to poor planning and estimating practices at CHPRC. We acknowledge
that the Recovery Act work and schedule presented management with tremendous challenges.
Nevertheless, we concluded that the contractor purchased more facilities than necessary to
support Recovery Act work because it did not adequately plan for supplemental space prior to
procuring additional facilities, and did not adequately justify the need for the number of facilities
acquired. Notably, CHPRC did not conduct an adequate space utilization assessment on existing
facilities prior to purchasing additional modular office facilities. Although not specifically
required by the Department, we concluded that such a space utilization assessment was
warranted given the number of facilities and cost involved in acquiring the facilities.

                                Utilization of Recovery Act Funds

CHPRC incurred about $2.1 million for facilities that were either not needed, or no longer
needed. We question these costs that we considered to be unreasonable per Federal Acquisition
Regulation 31.201-3(a), Determining Reasonableness, which states, "A cost is reasonable if, in
its nature and amount, it does not exceed that which would be incurred by a prudent person in the
conduct of competitive business." These funds could have been better used to support other
pressing cleanup priorities at the Hanford Site. We also are concerned that additional Recovery
Act funds spent to purchase and/or lease all of the other facilities may not have been efficiently
used. However, due to the limitations and lack of data described in this report, we were unable
to determine if this occurred.

                                                  4
SUGGESTED ACTIONS

To address the issues identified in this report, we suggest that the Manager, Richland Operations
Office:

   1. Direct the Contracting Officer to consider questioned costs contained in this report during
      the process for making a final determination of the allowability of costs incurred on the
      CHPRC contract;

   2. Ensure that the contractor fully documents alternative analyses for business decisions
      relating to acquisition and disposal of leased facilities; and

   3. Ensure that the process used to acquire facility property is fully justified, and clearly
      linked to staff needs and usage.

In responding to our draft report, management stated that Richland completed $1.6 billion of
Recovery Act scope under budget while creating thousands of meaningful jobs and achieving
footprint reduction. While management generally agreed with our suggested actions, it provided
comments on some of the conclusions and observations contained in the draft. This report
reflects changes made in response to management's comments.

Attachments

cc: Deputy Secretary
    Acting Under Secretary for Nuclear Security
    Senior Advisor for Environmental Management
    Chief of Staff




                                                 5
                                                                                   Attachment 1



                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine if modular facilities purchased with American
Recovery and Reinvestment Act of 2009 (Recovery Act) funding were fully utilized.

SCOPE

The audit was performed from October 2011 to November 2012, at the Richland Operations
Office and the CH2M HILL Plateau Remediation Company (CHPRC) in Richland, Washington.
The audit scope was limited to the modular facilities procured by CHPRC using Recovery Act
funding. Due to inadequate documentation at CHPRC, we were unable to complete our analysis
on facility utilization, and were therefore unable to determine whether the modular facilities
purchased with Recovery Act funding were fully utilized.

METHODOLOGY

To accomplish the audit objective, we:

    •   Researched and reviewed Federal regulations and Department of Energy (Department)
        guidance related to acquisitions and real property;

    •   Conducted walkthroughs of Recovery Act facilities;

    •   Obtained and reviewed CHPRC's occupancy records and utilization statistics for all the
        acquired modular facilities;

    •   Reviewed human resource records for all modular facilities acquired;

    •   Obtained and reviewed modular office facility records including building diagrams and
        purchase orders; and

    •   Held discussions with Department officials from the Richland Operations Office, the
        Office of Acquisition and Project Management, and CHPRC.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. Accordingly, we assessed significant internal
controls and compliance with laws and regulations necessary to satisfy the audit objective. In
particular, we assessed the Department's implementation of the GPRA Modernization Act of


                                               6
                                                                       Attachment 1 (continued)


2010 as it relates to our audit objective and found that the Department had not established
performance measures applicable to the procurement and installation of modular office facilities.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely on computer-
processed data to achieve the objective of our audit.

We held an exit conference with Department officials on June 25, 2013.




                                                7
                                                                                  Attachment 2



                                   PRIOR REPORTS

•   Management Alert on Protective Force Training Facility Utilization at the Pantex Plant,
    (DOE/IG-0855, September 2011). The audit found that the National Nuclear Security
    Administration's Office of Secure Transportation (OST) plans to construct a Physical
    Training/Intermediate Use of Force (PT/IUF) facility at the Pantex Plant may not be cost
    effective or necessary. Specifically, the audit noted that Pantex Plant's existing PT and
    IUF facilities have the capacity to fulfill OST's training needs. OST's analysis to justify
    the construction of a new facility did not fully consider the capability and capacity of
    existing facilities.

•   Management Alert on Planned Actions Related to the National Energy Technology
    Laboratory's Simulation-Based Engineering User Center, (OAS-RA-11-08, April 2011).
    The audit found that the plan to acquire and install a Performance Optimized Data Center
    may not be the least costly available option. Specifically, the audit noted that over 3,000
    square feet of usable space was available in the existing data center that was not being
    utilized nor were there firm plans to use the space in the future. The audit found that the
    acquisition of additional data center space could undermine efforts to more effectively
    utilize existing real property. In addition, the use of American Recovery and
    Reinvestment Act of 2009 (Recovery Act) funds to procure what may be unnecessary
    data center space raises concerns about the effective use of the Department of Energy's
    (Department) finite resources.

•   Audit Report on The Department's Infrastructure Modernization Projects under the
    Recovery and Reinvestment Act of 2009, (OAS-RA-L-11-04, March 2011). The audit
    found that the Department generally complied with Recovery Act requirements.
    However, the audit identified an instance in which Lawrence Berkeley National
    Laboratory planned infrastructure improvements for which there was no immediate need.
    This occurred because the Laboratory had not adequately ensured that Recovery Act
    spending yielded the optimum benefit to the Department.

•   Audit Report on The Audit of Leased Facilities at Los Alamos National Laboratory,
    (WR-B-95-02, January 1995). The audit found that Los Alamos National Laboratory
    (Los Alamos) did not always obtain needed facilities in the most advantageous manner.
    Los Alamos leased portable office trailers rather than purchasing them, even though
    cumulative leasing costs were substantially higher than initial purchasing costs. This
    practice occurred because Los Alamos had neither estimated the length of time such
    office space was needed, nor performed adequate "lease versus purchase" analyses to
    determine the most economical method of acquisition.




                                             8
                                                               IG Report No. OAS-RA-L-13-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
